No. ______
In the

Supreme Court of the United States
__________________

JULIUS BARBOUR, ET AL.,
Petitioners,
v.
HALLIBURTON COMPANY, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

Michael D. Greer
Greer, Russell, Dent
& Leathers, PLLC
P.O. Box 907
Tupelo, MS 38802
(662) 842-5345

John G. Wheeler
Counsel of Record
Michael D. Chase
Mitchell, McNutt
& Sams, P.A.
P.O. Box 7120
Tupelo, MS 38802
(662) 842-3871
jwheeler@mitchellmcnutt.com

Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Petitioners, class members in settled class-actions, did
not receive notice of a requirement, imposed postsettlement, to have filed an individual lawsuit in order
to be entitled to recovery under the settlements until
after the deadline to file such suits had passed. The
court of appeals nevertheless held that petitioners were
not denied due process, because they purportedly had
notice of the suit-filing requirement in time to attempt
to show cause why the failure to meet the deadline
should be excused. That ground was not briefed but
instead was raised by the court sua sponte at oral
argument. The questions presented are:
1. Whether class members are given constitutionally
adequate notice under Eisen v. Carlisle & Jacquelin,
which requires direct individual notice when
practicable, where a notice of a class action settlement
that is mailed to some class members does not disclose
a requirement to take certain action to preserve one’s
entitlement to compensation under the settlement, and
notice is not mailed to them or not mailed until after
the deadline to comply with the requirement.
2. Whether it is a violation of due process or an abuse
of discretion for a court of appeals to base its decision
on a ground raised only by the court itself during oral
argument.
3. Whether, regardless of notice, it violates due process
to deny compensation to a class member for not
meeting an eligibility qualification imposed by the
claims administrator based on a post-settlement MDL
procedural order and where the class member met the
qualification at the time of settlement and at the time
of claim submission.

ii
LIST OF PARTIES
The following is a list of all parties to the proceedings
in the Court below, as required by Rule 14.1(b) of the
Rules of the Supreme Court of the United States.
Petitioners in this Court, who were the plaintiffsappellants below, are:
Julius Barbour, Edward Barnhill, Jr., Edward
Barnhill, Sr., Karen Barnhill, Scott Black, Cleve
Boatwright, Norwood Cain, Sr., Arthur Coleman,
Frank Conley, Jerel Conley, Troy Cornelius, Sr., Darrin
Covert, Charles Cowart, Dobby Darna, Randolph
Darna, III, Randolph Darna, Jr., Richard Delacey,
James Dooley, Michael Shane Dooley, Allan Dopirak,
Bobby Esfeller, Ricky Gomes, Benjamin Hamilton,
Richard Harbison, Sr., Richard Harbison, Jr., Ernest
Harris, Doran Hoffman, James Johns, Daryl Johnson,
Rory Johnson, Roy Kibbe, David Krause, Michael
Krause, William Ladnier, Sr., William Ladnier, Jr.,
Richard Lolly, Franklin McCall, Anthony Moralis,
Helton Nelson, Lloyd Nielson, Destin O’Brien, Thomas
O'Brien, James Parker, III, Jason Parker, Robert Chad
Paul, Charles Porter, Ernest Price, Justin Sawyer,
David Simms, Sr., Thomas Smith, James Stewart,
William Stewart, Donald Stork, Sr., Marion Strange,
Richard Turner, Cecil Wainwright, Jr., Derek
Wainwright, Jerry Walker, Charles Wallace, Clarence
Waters, Travis Wilkerson, Deloyd Williamson, Joseph
Williamson, Martin Young, Dennis Zirlott, Donald
Zirlott, George Zirlott, and Simon Zirlott.

iii
Respondents in this Court, who were the defendantsappellees below, are:
Halliburton Energy Services, Inc., Halliburton
Company, Transocean Holdings, L.L.C., Triton Asset
Leasing GMBH, Transocean Deepwater, Inc., and
Transocean Offshore Deepwater Drilling, Inc.
STATEMENT OF RELATED PROCEEDINGS
• In re Deepwater Horizon, No. 18-30243 (5th Cir.)
(consolidated opinion issued and judgment entered
August 13, 2019; petition for rehearing denied Sept.
10, 2019).
• In re Deepwater Horizon, No. 18-30413 (5th Cir.)
(consolidated opinion issued and judgment entered
August 13, 2019; petition for rehearing denied Sept.
10, 2019).
• In re Deepwater Horizon, No. 18-30533 (5th Cir.)
(consolidated opinion issued and judgment entered
August 13, 2019; petition for rehearing denied Sept.
10, 2019).
• In re Oil Spill by Oil Rig “Deepwater Horizon”,
No. 2:10-MD-2179 (E.D. La.) (claims appeal
determination and reasons entered January 4,
2018).
• In re Oil Spill by Oil Rig “Deepwater Horizon”,
No. 2:10-MD-2179 (E.D. La.) (claims appeal
determination and reasons entered March 26,
2018).

iv
• In re Oil Spill by Oil Rig “Deepwater Horizon”,
No. 2:10-MD-2179 (E.D. La.) (order entered January
31, 2018).
• In re Oil Spill by Oil Rig “Deepwater Horizon”,
No. 2:10-MD-2179 (E.D. La.) (order entered
February 26, 2018).
Petitioners are unaware of any other proceedings in
state or federal trial or appellate courts that are
directly related to the case in this Court.

v
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . viii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED. . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
REASONS FOR ALLOWANCE OF THE WRIT. . . 13
1. The court of appeals erred in holding, contrary
to this Court’s decisions in Eisen v. Carlisle &
Jacquelin, Schroeder v. City of New York, and
Mullane v. Central Hanover Bank & Trust Co.,
that petitioners were on notice of the PTO 60
compliance requirement prior to the deadline for
responding to the district court’s show-cause
order even though no individual notice of the
requirement was given. . . . . . . . . . . . . . . . . . . . 13
2. The court of appeals denied due process or
abused its discretion in rejecting petitioners’ due
process argument on grounds not asserted by
appellees or amicus but raised by the court sua
sponte at oral argument.. . . . . . . . . . . . . . . . . . . 26

vi
3. Denial of compensation to petitioners based on
the PTO 60 compliance requirement violated
petitioners’ substantive due process rights
because it was arbitrary and capricious. . . . . . . 29
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(August 13, 2019) . . . . . . . . . . . . . App. 1
Appendix B Claims Appeal Determination and
Reasons in the United States District
Court, Eastern District of Louisiana
(January 4, 2018) . . . . . . . . . . . . App. 26
Appendix C Claims Appeal Determination and
Reasons in the United States District
Court, Eastern District of Louisiana
(March 26, 2018) . . . . . . . . . . . . . App. 44
Appendix D Order in the United States District
Court, Eastern District of Louisiana
(February 26, 2018) . . . . . . . . . . App. 47
Appendix E Order in the United States District
Court, Eastern District of Louisiana
(January 31, 2018) . . . . . . . . . . . App. 48
Appendix F Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Fifth Circuit
(September 10, 2019) . . . . . . . . . App. 50

vii
Appendix G Short-Form Legal Notice, Deepwater
Horizon Oil Spill, Halliburton and
Transocean Settlements . . . . . . App. 56
Appendix H Long-Form Legal Notice, Deepwater
Horizon Oil Spill, Halliburton and
Transocean Settlements . . . . . . App. 60

viii
TABLE OF AUTHORITIES
CASES
Allen v. Friel,
194 P.3d 903 (Utah 2008) . . . . . . . . . . . . . . . . . . 27
Arsement v. Spinnaker Exploration Co.,
400 F.3d 238 (5th Cir. 2005). . . . . . . . . . . . . . . . 26
Bainter v. League of Women Voters,
150 So. 3d 1115 (Fla. 2014) . . . . . . . . . . . . . . . . 27
Bruhmuller, et al. v. BP Exploration & Production,
Inc., et al.,
no. 2:13-cv-097 . . . . . . . . . . . . . . . . . . . . . . passim
Carducci v. Regan,
714 F.2d 171 (D.C. Cir. 1983). . . . . . . . . . . . . . . 26
Charles v. Baesler,
910 F.2d 1349 (6th Cir. 1990). . . . . . . . . . . . . . . 14
Daniels v. Williams,
474 U.S. 327 (1986). . . . . . . . . . . . . . . . . . . . . . . 29
Douglas v. New York State Adirondack Park
Agency,
895 F. Supp. 2d 321 (N.D.N.Y. 2012), modified
on reconsideration on other grounds, 2012 WL
5364344 (N.D.N.Y. Oct. 30, 2012) . . . . . . . . . . . 14
Eisen v. Carlisle & Jacquelin,
417 U.S. 156 (1974). . . . . . . . . . . . . . . . . . . passim
Exxon Shipping Co. v Baker,
554 U.S. 471 (2008). . . . . . . . . . . . . . . . . . . . . . . 32

ix
García-Rubiera v. Fortuño,
727 F.3d 102 (1st Cir. 2013) . . . . . . . . . . . . . 14, 15
Gillaspy v. Dallas Independent School Dist.,
278 Fed. Appx. 307 (5th Cir. 2008) . . . . . . . . . . 28
Goss v. Lopez,
419 U.S. 565 (1975). . . . . . . . . . . . . . . . . . . . 22, 23
Hodel v. Irving,
481 U.S. 704 (1987). . . . . . . . . . . . . . . . . . . . . . . 14
In re Oil Spill by Oil Rig “Deepwater Horizon”,
2016 WL 10586172
(E.D. La. Dec. 16, 2016) . . . . . . . . . . . . . . . 6, 7, 14
Lear v. Cowan,
220 F.3d 825 (7th Cir. 2000). . . . . . . . . . . . . . . . 27
Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306 (1950). . . . . . . . . . . . . . 13, 17, 20, 25
NLRB v. Robin American Corp.,
667 F.2d 1170 (5th Cir. 1982). . . . . . . . . . . . . . . 24
Perry v. Sindermann,
408 U.S. 593 (1972). . . . . . . . . . . . . . . . . . . . . . . 14
Phillips Petroleum Co. v. Shutts,
472 U.S. 797 (1985). . . . . . . . . . . . . . . . . . . . . . . 19
Principal Mutual Life Ins. Co. v. Charter Barclay
Hospital, Inc.,
81 F.3d 53 (7th Cir. 1996). . . . . . . . . . . . . . . 26, 27
Roise v. Kurtz,
587 N.W.2d 573 (N.D. 1998). . . . . . . . . . . . . . . . 27

x
Schroeder v. City of New York,
371 U.S. 208 (1962). . . . . . . . . . . . . . . . . 17, 20, 25
Simi Investment Co. v. Harris County,
236 F.3d 240 (5th Cir. 2000). . . . . . . . . . . . . . . . 29
State v. Liulama,
845 P.2d 1194 (Haw. Ct. App. 1992) . . . . . . . . . 27
Thompson v. Dallas City Attorney’s Office,
913 F.3d 464 (5th Cir. 2019). . . . . . . . . . . . . . . . 28
United States v. Locke,
471 U.S. 84 (1985). . . . . . . . . . . . . . . . . . . . . . . . 14
CONSTITUTION
U.S. CONST. amend. 5 . . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1333 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
46 U.S.C. § 30101 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
RULES
Fed. R. Civ. P. 23(c)(2)(B) . . . . . . . . . . . . . . . . . . . . 17
Fed. R. Civ. P. 60(b) . . . . . . . . . . . . . . . . . . . . . . 11, 12
Fed. R. App. P. 4. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

xi
OTHER AUTHORITIES
The American Heritage Dictionary, Second College
Edition (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
http://www.cbsnews.com/ news/how-fate-and-45mfrom-bp-gave-one-fish-oil-producer-a-banneryear/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
https://money.cnn.com/2011/04/21/smallbusiness/
thebuzz/?section=money_latest . . . . . . . . . . . . . . 4

1
Petitioners pray that the Supreme Court grant a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Fifth Circuit is found at 934 F.3d 434 (5th Cir.
2019), and is attached as App. 1-25. The unreported
order of the court of appeals denying the petition for
rehearing is attached as App. 50-55. The opinion of the
United States District Court for the Eastern District of
Louisiana denying the claims appeals of 63 of the
petitioners is found at 2018 WL 334030 (E.D. La.
January 4, 2018), and is attached as App. 26-43. The
unreported opinion of the United States District Court
for the Eastern District of Louisiana denying the
claims appeals of five of the petitioners is attached as
App. 44-46. The unreported order of the United States
District Court for the Eastern District of Louisiana
denying the objection to the January 4, 2018 decision
by the magistrate judge is attached as App. 48-49. The
unreported order of the United States District Court
for the Eastern District of Louisiana denying
petitioners’ motion for relief from the order approving
the distribution model is attached as App. 47.
JURISDICTION
The judgment of the court of appeals was entered on
August 13, 2019. A timely petition for rehearing was
denied on September 10, 2019. This Court has
jurisdiction to review the decision of the court of
appeals by writ of certiorari under 28 U.S.C. § 1254(1).

2
CONSTITUTIONAL PROVISIONS INVOLVED
The Fifth Amendment to the United States
Constitution provides in pertinent part, “No person
shall be . . . deprived of life, liberty, or property,
without due process of law.” U.S. CONST. amend. 5.
STATEMENT OF THE CASE
This case raises important and likely recurring
questions regarding the rights of class members in
class actions in multidistrict litigation or in other cases
under maritime law, including the application of this
Court’s decisions holding that due process requires that
class members be given the best notice that is
practicable under the circumstances, which is
individual notice when practicable, and whether that
standard is satisfied when individual notice fails to
disclose a requirement that a class member must
satisfy in order to receive compensation under a class
settlement but merely refers class members to a
website upon which is posted a document (also not
referred to in the direct notice) stating the
requirement, and whether class members may be
denied compensation under a settlement agreement
that undisputedly includes them in the settlement
class based on an eligibility qualification that they met
at the time the settlement was entered into and at the
time they submitted their claims but not at the time
the claims administrator evaluated their claims.
The district court had jurisdiction of the class
actions to which the subject settlement agreements
related under Article III, section 2 of the United States
Constitution (which confers jurisdiction on the federal

3
courts to hear “all Cases of admiralty and maritime
Jurisdiction”), 28 U.S.C. § 1331 (federal question), and
28 U.S.C. § 1333 (admiralty or maritime claims), and
the Admiralty Extension Act, 46 U.S.C. § 30101, since
the class actions were brought under maritime law.
The court of appeals had appellate jurisdiction under
28 U.S.C. § 1291 and Rule 4 of the Federal Rules of
Appellate Procedure in that the orders appealed from
are final orders or judgments of the district court
disposing of all the petitioners’ claims, and the notices
of appeal were filed within the prescribed 30-day period
following the entry of the orders.
Petitioners are 68 commercial menhaden1 fishermen
whose livelihoods were severely impacted by the oil
spill that resulted from the Deepwater Horizon disaster
in April 2010. Their claims for damages were asserted
through their inclusion as class members in multiple
class action lawsuits in the MDL seeking actual and
punitive damages against defendants that included BP
Exploration & Production Inc. (“BP”), Halliburton
Energy Services, Inc., (“Halliburton”), and Transocean
Holdings, LLC (“Transocean”). Such actions included
the class-action portion of the “B1 Master Complaint”
for economic and property damages claims that the
district court ordered filed for administrative purposes
and a class action suit filed by First National Bank,
USA and others styled Bruhmuller, et al. v. BP

1

Menhaden is “[a]n abundant inedible fish . . . of American
Atlantic and Gulf waters, used as a source of fish oil, fish meal,
fertilizer, and bait.” The American Heritage Dictionary, Second
College Edition (1985).

4
Exploration & Production, Inc., et al., no. 2:13-cv-097.2
App. 6.
BP eventually agreed to a class settlement of
economic and property damages claims in 2012, termed
the Deepwater Horizon Economic and Property
Damages Settlement (“the DHEPDS”). However,
menhaden fishermen were inexplicably excluded from
the settlement, even though other commercial
fishermen were included.3 App. 7.
Halliburton and Transocean subsequently reached
separate, but substantially identical (except for the
amount of payment), agreements with class counsel to
settle punitive damages claims against them (“the
Settlement Agreements”).4 The Settlement Agreements
2

The Bruhmuller complaint described the plaintiff class as:
All individuals and entities residing or owning property in
the United States who claim economic losses, or damages
to their occupations, businesses, and/or property as a
result of the April 20, 2010, explosions and fire aboard,
and sinking of, the Deepwater Horizon, and the resulting
Spill,who have opted out of the [BP] Settlement or whose
claims are expressly or impliedly excluded fromthe
Settlement.

3

Even though menhaden fishermen were excluded from
participation in the DHEPDS, a company that processes
menhaden into fish oil products reportedly received almost $45
million. See https://money.cnn.com/2011/04/21/smallbusiness/
thebuzz/?section=money_latest; http://www.cbsnews.com/
news/how-fate-and-45m-from-bp-gave-one-fish-oil-producer-abanner-year/.
4

The HESI Settlement Agreement was entered into and filed on
September 2, 2014 and amended on September 2, 2015. The

5
provided for the settlement funds to be apportioned
between two classes: those who had received
compensation in the BP settlement (the DHEPDS
Class) and those who had been excluded from or opted
out of that settlement (the New Class). The New Class
included a sub-class of commercial fishermen, defined
as all those who had operated in the area affected by
the spill during a specified time period. That subclass
consisted mostly of menhaden fishermen, who had been
excluded from the DHEPDS. There is no dispute that
the petitioners are within the settlement class
definition of the Settlement Agreements. App. 7.
The Settlement Agreements did not set out any
requirements for compensation for commercial
fishermen other than meeting the sub-class definition.
They did not contain a provision requiring any proof of
actual economic loss by a class member in order to
receive compensation. The amount of punitive damages
payments for menhaden fishermen was to be
independently determined by the court-appointed
claims administrator as a 1:1 ratio to estimated
economic loss based on data regarding the impact of
the oil spill on the overall menhaden catch. The
Settlement Agreements did not provide that a class
member had to have a pending lawsuit or viable
compensatory damages claim against Halliburton or
Transocean in order to be in the settlement class and
receive compensation. Indeed, the Settlement
Agreements contemplated that some class members
would not have filed lawsuits (which is, after all, the
Transocean Settlement Agreement was entered into and filed on
May 29, 2015. App. 7.

6
whole point of class actions), since they included
provisions tolling the statute of limitations on any
causes of action “that have been or could be asserted.”
In any event, it is undisputed that at the time the
Settlement Agreements were executed the petitioners
had viable, non-time barred causes of action against
Halliburton and Transocean and that their claims were
being asserted in one or more putative class actions in
the MDL. App. 7-8.
On March 29, 2016, months after the Settlement
Agreements had been entered into and filed for
approval, the district court entered Pretrial Order
No. 60 (“PTO 60”) in the MDL, which dismissed the B1
Master Complaint and ordered persons who did not
participate in the DHEPDS and had asserted their
claims through joinders in the Master Complaint or as
parties to multi-plaintiff lawsuits to file single-plaintiff
lawsuits in order to continue to pursue claims for
economic or property damage against BP or other
parties. The court set a deadline of May 2, 2016 for
persons to file individual lawsuits in order to avoid
having their claims dismissed. App. 8. Although PTO
60’s dismissal of the B1 Master Complaint dismissed
one of the class actions in which petitioners were in the
plaintiff class, the district court did not at that time
dismiss the Bruhmuller class action that also included
petitioners in the plaintiff class. That class action was
not dismissed until December 16, 2016, after the
petitioners had submitted their claims to the claims
administrator. See In re Oil Spill by Oil Rig “Deepwater
Horizon”, 2016 WL 10586172, *9 (E.D. La. Dec. 16,
2016).

7
Notice of PTO 60 was sent only to known counsel of
record for plaintiffs who had filed lawsuits or joinders
in the Master Complaint and persons who had filed
opt-outs from the DHEPDS stating that they were
unrepresented.5 Consequently, the petitioners, who had
not opted out of the DHEPDS and who at all material
times were unrepresented6, did not receive actual
notice of PTO 60 until long after the May 2, 2016
deadline for filing individual lawsuits had passed.
On April 12, 2016, the district court gave
preliminary approval of the Settlement Agreements
and approved the form for the notice of the settlements
to be published and distributed to class members.
“Short-form” notices were to be mailed to class
members and published in various newspapers, and a
“long-form” notice was to be posted on the settlement
website. Even though the notices (App. 56-59; 60-99)
were promulgated after PTO 60 was issued, neither
made any mention of that order, its requirements, or
any implications it would have with regard to the
5

Notice of PTO 60 was provided by four methods: (1) electronic
notice to all counsel of record who signed up for electronic service
with File & Serve, (2) notice by mail to persons who had opted out
of the DHEPDS and who stated on the opt-out form that they were
unrepresented, (3) e-mail from the PSC to known counsel of record
for plaintiffs who joined in the Amended B1 Master Complaint
and/or opted out of the DHEPDS, and (4) posting PTO 60 on the
court’s website. In re Oil Spill, 2016 WL 10586172 at *5.
6

The petitioners maintained in the district court and the court of
appeals that they were not represented by counsel during the
pertinent time period when they could have complied with PTO
60, and neither the claims administrator nor the appellees
disputed that position.

8
Settlement Agreements. The only thing the short-form
notice told the New Class members they would have to
do to receive benefits was to file a claim by
December 15, 2016. The notice gave the web address
for the settlement website to go to “for more
information.” App. 58-59. The long-form notice set out
the eligibility requirements for commercial fishermen,
and those requirements did not include having a
pending individual lawsuit in the MDL. App. 74-75, 9799.
The preliminary approval order set a deadline of
September 26, 2016 to file objections to the Settlement
Agreements and set a fairness hearing for October 20,
2016 for consideration of objections. The order also
directed the claims administrator to file a proposed
distribution model for payment of settlement proceeds
by June 15, 2016. The order did not expressly address
consideration of potential objections to the distribution
model. The short-form notice gave the deadline to opt
out of or object to the settlements, but did not mention
the distribution model or any opportunity to contest its
provisions.
On June 7, 2016, the district court entered an order
directing certain specifically described groups of
persons who purportedly had not complied with PTO
60 to show cause in writing why their claims should not
be dismissed (“the show-cause order”). The order set a
deadline of June 28, 2016 to file such written showing.
The district court directed that notice of the show-cause
order be given using the same or similar means to

9
those used for PTO 60.7 Thus, as with PTO 60, the
means of notice did not give individual or actual notice
of the show-cause order to unrepresented persons who
had not opted out of the DHEPDS, including
petitioners.
On June 13, 2016, the claims administrator filed a
proposed distribution model for the New Class portion
of the Settlement Agreements for court approval. The
distribution model was also posted on the
Halliburton/Transocean settlement website. The
distribution model provided that no New Class
claimant would receive compensation unless such
claimant had reached a settlement or had complied
with PTO 60 by filing an individual lawsuit. This
provision was also set out in the claim form that was
an exhibit to the distribution model. The distribution
model was the first mention of a requirement of
compliance with PTO 60 as a condition for
compensation to New Class members under the
Settlement Agreements, and this came more than a

7

The show-cause order provided that “all counsel of record should
receive a copy via F&S [File and Serve],” that the order would be
posted on the court’s website, that “[c]ounsel for BP shall mail this
Order to each unrepresented individual and business to which it
previously mailed PTO 60,” and that “to the extent practicable, the
PSC shall email a copy of this Order to known counsel of record for
Plaintiffs who joined the Amended B1 Master Complaint, and/or
opted out of the Economic and Property Damages Settlement and
may therefore be subject to this Order.” Petitioners had not
retained counsel and had not been mailed a copy of PTO 60 by BP
and thus were not among those receiving individual notice of the
order.

10
month after the deadline for such compliance had
passed.
The short-form notices were mailed beginning on
June 15, 2016. However, the record reflects no effort to
identify commercial fishermen in the New Class to be
given individual notice. Instead, according to the
affidavit of the C.O.O. of the company engaged to act as
“notice administrator,” the list of persons to receive
short-form notices by mail or e-mail was derived from
lists of (1) DHEPDS class members; (2) persons who
had opted out of the DHEPDS; (3) persons who had
filed short form joinders in the MDL; (4) real property
owners identified in relation to the DHEPDS; and
(5) persons who had complied with PTO 60.8
Consequently, the mailed short-form notice was not
intended to reach class members such as petitioners
who had been involuntarily excluded from the
DHEPDS, had not been actual plaintiffs in the MDL,
and had not complied with PTO 60 because they had
not received notice of the order or its requirements.
A number of New Class members who were
represented by counsel filed objections to the PTO 60
compliance requirement, which the district court
addressed in conjunction with objections to the
Settlement Agreements considered at the fairness
hearing on October 20, 2016. While the district court
approved the other parts of the distribution model in
its order of February 15, 2017, the court expressly
declined to rule on the objections to the PTO 60
compliance requirement, instead holding that such

8

ROA. 18-30243.4814-4818.

11
objections were premature because claims
determinations could be appealed to the district court,
so that claimants who were denied compensation based
on that requirement could raise the objections “after
claims determinations are concluded.”9
Petitioners learned of the PTO 60 compliance
requirement when they obtained claim forms in
preparation for filing claims, which were filed on or
shortly before the filing deadline of December 15, 2016.
There was no evidence below that petitioners obtained
such actual knowledge prior to the deadline for
responding to the show-cause order. After petitioners’
claims were denied by the claims administrator, they
sought review by the district court pursuant to its
holding that the PTO 60 compliance requirement could
be challenged “after claims determinations are
concluded” through appeals of their claims
determinations to the district court, as well as by a
motion under Rule 60(b) of the Federal Rules of Civil
9

The district court stated:
The majority of objectors direct their concerns to the
determinations under the New Class Distribution Model
rather than the underlying New Class Settlement or the
Distribution Model itself. Because the New Class Claims
Administrator’s determinations can be appealed to this
Court, the objections are premature. . . . Seventy-four
objectors who failed to comply with PTO 60 now object to
the impact this failure will have on their New Class
distribution. . . . The Court makes no decision on the
propriety of the Claims Administrator’s interpretation.
This objection is most properly considered in an appeal to
this Court after claim determinations are concluded.

ROA.18-30243.5276.

12
Procedure. The court, by the magistrate judge,
addressed the claims appeals in two separate decisions,
involving 63 and five fishermen respectively. App. 2643; 44-46. The magistrate judge affirmed the claims
determinations, rejecting the challenge to the PTO 60
compliance requirement as applied to the petitioners.
The district judge refused review of the magistrate
judge’s ruling. App. 48-49. The district court summarily
denied petitioners’ Rule 60(b) motion without opinion
or explanation. App. 47.
Petitioners appealed to the court of appeals from
each of the district court’s orders, and the appeals were
consolidated. The court of appeals affirmed the
judgments of the district court in each case. With
respect to the petitioners’ procedural due process
argument, the court held that, notwithstanding the
undisputed lack of notice of PTO 60 and the claims
administrator’s PTO 60 compliance requirement until
after the deadline for compliance, petitioners were not
denied due process because, the court said, they had
opportunities to seek relief from the consequences of
not complying with PTO 60 after they were on notice of
the PTO 60 compliance requirement but had not taken
advantage of them. The court imputed to the
petitioners knowledge of the compliance requirement
as of the filing of the distribution model on June 13,
2016 and reasoned that, since that date was before the
June 28, 2016 deadline to respond to the show-cause
order and the September 26, 2016 date to file objections
to the Settlement Agreements, petitioners could and
should have used the former vehicle to ask the district
court to permit them to comply with PTO 60 out of time
or used the latter proceeding to object to the PTO 60

13
compliance requirement. Neither the appellees nor the
claims administrator, appearing as amicus curiae, had
asserted this non-pursuit of such opportunities as a
ground for rejecting petitioners’ due process argument;
rather, the court of appeals raised this as an issue for
the first time at oral argument.
REASONS FOR ALLOWANCE OF THE WRIT
The Court should grant the writ to ensure
adherence to its decisions regarding the means of
notice required to satisfy due process, which the court
of appeals failed to apply, to enforce the universal
premise, grounded in principles of due process and
fundamental fairness, that an appellate court may not
base its decision on grounds not raised until oral
argument, and to correct a fundamental denial of
substantive due process to class members in a class
action settlement.
1. The court of appeals erred in holding,
contrary to this Court’s decisions in Eisen v.
Carlisle & Jacquelin, Schroeder v. City of New
York, and Mullane v. Central Hanover Bank &
Trust Co., that petitioners were on notice of
the PTO 60 compliance requirement prior to
the deadline for responding to the district
court’s show-cause order even though no
individual notice of the requirement was
given.
The court of appeals did not hold that the
petitioners received adequate notice of PTO 60 before
the May 2, 2016 deadline for compliance had passed.
Neither the appellees nor amicus below defended the

14
notice of PTO 60 with respect to these claimants. The
district court had held in another context that the
means of notice of PTO 60 were not adequate with
respect to a party who, like the petitioners, was
unrepresented at the time PTO 60 was issued and had
not participated in the DHEPDS. See In re Oil Spill by
Oil Rig “Deepwater Horizon”, 2016 WL 10586172, *5
(E.D. La. Dec. 16, 2016). Petitioners obviously did not
have notice that PTO 60 compliance was a requirement
for compensation under the Settlement Agreements
prior to the compliance deadline, because that
requirement was not promulgated until after the
deadline.
Once the Settlement Agreements were executed,
petitioners had a property interest in their share of the
settlement funds. See Perry v. Sindermann, 408 U.S.
593, 601-02 (1972) (contractual rights are property
within the meaning of the due process clause); Charles
v. Baesler, 910 F.2d 1349, 1352 (6th Cir. 1990) (same);
Douglas v. New York State Adirondack Park Agency,
895 F. Supp. 2d 321, 384 (N.D.N.Y. 2012) (noting
property interest from settlement agreement), modified
on reconsideration on other grounds, 2012 WL 5364344
(N.D.N.Y. Oct. 30, 2012).
Where the government prescribes actions that a
person must take in order to preserve or protect a
property interest, due process requires that such
person receive notice of the requirements and a
reasonable opportunity to comply. United States v.
Locke, 471 U.S. 84, 106 n.15 (1985); Hodel v. Irving,
481 U.S. 704, 730 (1987) (Stevens, J., concurring in the
judgment); García-Rubiera v. Fortuño, 727 F.3d 102,

15
110 (1st Cir. 2013).
It is manifest from the
circumstances noted above that the petitioners did not
receive due process—notice and opportunity to comply
—because they did not receive notice of the need for
action before the opportunity to comply was barred.
Consequently, the denial of their claims based on PTO
60 violated their due process rights.
The court of appeals nevertheless held that
petitioners were not denied due process despite such
lack of notice prior to the deadline for compliance
because, the court concluded, the petitioners had
received notice of the PTO 60 compliance requirement
in time to file a response to the district court’s showcause order of June 7, 2016 and thereby attempt to
persuade the district court to allow them to file
individual complaints even though the deadline had
passed, or to utilize other opportunities to seek relief
from the consequences of non-compliance. App. 21-22.
The court imputed notice to petitioners of the PTO
compliance requirement in the distribution model as of
the date the distribution model was filed (June 13,
2016) and held that this left petitioners with
approximately two weeks before the district court’s
deadline for filing a response to the show-cause order
(June 28, 2016).10 The court held that because
10

The court of appeals mistakenly assumed that petitioners had
conceded that they were on notice of the PTO 60 compliance
requirement as of the filing of the distribution model for approval.
App. 21-22. Petitioners made no such concession in their briefing
or during oral argument, and neither the appellees nor amicus
asserted such a concession. To the contrary, petitioners argued in
their brief that they did not even receive adequate notice of the
PTO 60 compliance requirement through the short-form notices

16
petitioners did not seek relief through the show-cause
order, they were foreclosed from obtaining relief based
on violation of their due process rights. App. 22.
Beyond the apparent lack of precedent for the legal
proposition that a person denied adequate notice of a
deadline must, as one of the judges on the panel put it,
throw himself on the mercy of the court and seek relief
from the consequences of missing the deadline, the
reasoning of the court of appeals that the petitioners
should have responded to the show-cause order is
fundamentally flawed based on this Court’s precedents
concerning the manner of notice required by due
process. In order for petitioners properly to be charged
with failing to avail themselves of the show-cause order
or other opportunity for relief, it would have to be the
(which were mailed after the distribution model was filed) or the
long-form notice posted on the settlement website; they asserted
that “the notices of settlement . . . did not inform New Class
members that they would be required to file individual suits under
PTO 60 to avoid having their agreed-upon entitlement to
compensation snuffed out” and that “the notices of settlement told
them in effect the exact opposite: that they would have to do
nothing other than file a claim with information to verify that they
met the definition of the New Class in order to receive
compensation.” The issue addressed in the briefs was the adequacy
of notice of PTO 60 and the PTO 60 compliance requirement
regarding the settlements prior to the deadline for compliance and
the due process implications of such lack of notice. The precise
later point at which petitioners properly could have been charged
with notice of PTO 60 or the compliance requirement was not an
issue until the court of appeals made it an issue during oral
argument, and thus petitioners were not afforded a meaningful
opportunity prior to the court’s ruling to address the issue of
whether the mere filing of the distribution model gave petitioners
constitutionally adequate notice.

17
case that they were given adequate notice of the
distribution model’s PTO 60 compliance requirement
prior to the pertinent deadline and that they were
given adequate notice of the opportunity for relief. As
explained below, neither of those conditions was
present.
First, the court’s reasoning is based on the
erroneous conclusion that the filing of the distribution
model was sufficient notice to the petitioners of the
PTO 60 compliance requirement contained therein.
Under Rule 23, class members are entitled to “the best
notice that is practicable under the circumstances,
including individual notice to all members who can be
identified through reasonable effort.” Fed. R. Civ. P.
23(c)(2)(B). This provision states the due process
standard. Eisen v. Carlisle & Jacquelin, 417 U.S. 156,
173-74 (1974). Due process requires that the means
employed to give notice must be means that a person
who really wanted to inform the absent class member
would use if practicable. Mullane v. Central Hanover
Bank & Trust Co., 339 U.S. 306, 315 (1950). The means
must be “reasonably certain to inform those affected.”
Id. Thus, where individual direct notice can be readily
given, notice by publication or other non-direct means
does not satisfy the requirements of due process. Eisen,
417 U.S. at 175; Schroeder v. City of New York, 371
U.S. 208, 212-13 (1962). In such case, direct individual
notice is “an unambiguous requirement.” Eisen, 417
U.S. at 176.
As noted above, a “short-form” notice was mailed to
class members and was the only individual notice given
to them about anything related to the settlements.

18
However, as noted above, the record reflects that there
was no purpose to send that notice to New Class
members who had not complied with PTO 60 for
whatever reason. The record also reflects no
determination that it would have been impracticable to
identify and give individual notice to menhaden
fishermen as a group, particularly since they
constituted the bulk of the commercial fishermen
subclass of the New Class, and the claims
administrator’s amicus brief admits knowledge of the
identities of the companies that processed most of the
menhaden catch, from whom a list of their fishermensuppliers readily could have been obtained.
Furthermore, even if petitioners had received the
short-form notice or seen it in a newspaper, the notice
did not mention the distribution model or the PTO 60
compliance requirement for compensation; rather, it
told New Class members that the only thing they had
to do to receive compensation was to file a timely claim.
It would have been a simple matter to include the PTO
60 compliance requirement in the short-form notice.
The distribution model stated, for example, “For those
claimants who were not included within the DHEPDS
and are allowed to file a new claim under this
Distribution Model, their claims will be assigned no
value unless they adequately preserved their right to
pursue damages by complying with the MDL-2179
Pretrial Order 60.” That brief statement could easily
have been placed in the short-form notice that was
mailed to New Class members, but it was not.
To be constitutionally adequate, a class-action
notice must describe a class member’s rights in the

19
action. Phillips Petroleum Co. v. Shutts, 472 U.S. 797,
812 (1985). Since compliance with PTO 60 by filing an
individual lawsuit was declared in the distribution
model to be a requirement to receive compensation
under the Settlement Agreements, then the short-form
notice, which did not disclose that requirement, did not
accurately describe the petitioners’ rights with respect
to the settlements and thus did not satisfy the
requirements of due process. The mere filing of the
distribution model and posting of it on the settlement
website was not the best notice of the PTO 60
compliance requirement that was practicable and was
not reasonably certain to give actual notice of the
requirement to the petitioners prior to the deadline to
respond to the show-cause order, which was only two
weeks after the distribution model was filed. Therefore,
contrary to the holding of the court of appeals, the
petitioners did not have constitutionally adequate
notice of the PTO 60 compliance requirement in time to
be able to seek relief under the show-cause order.
In short, due process required that the petitioners
be given adequate notice of the PTO 60 compliance
requirement in time to comply with that
requirement—as the court of appeals apparently
acknowledged—but excluding petitioners from
individual notice, or in any event omitting the
compliance requirement from the short-form notice and
instead relying on filing the proposed distribution
model and posting it on the settlement website, did not
give adequate notice to petitioners in time to comply
with PTO 60 or to respond to the show-cause order,
even under the court’s view that there was a postdeadline opportunity for compliance. Accordingly, the

20
holding of the court of appeals, which was based on the
view that non-individual notice was sufficient even
though individual notice would have been better notice
and was practicable, was inconsistent with the holdings
of this Court in Eisen, Schroeder, and Mullane.
Second, even if mere constructive notice of the PTO
60 compliance requirement could have satisfied due
process under the circumstances, the court’s reasoning
is nonetheless erroneous with respect to when
petitioners properly could be deemed to have received
constructive notice of the pertinent provisions of the
distribution model. The court of appeals imputed to the
petitioners notice of the PTO 60 compliance
requirement as of the date it was filed with the district
court for approval, June 13, 2016. But the mere filing
of the distribution model for approval and posting it on
the settlement website did not give constructive notice
of the PTO 60 compliance requirement to these
unrepresented absent class members, any more than
the filing of PTO 60 and posting notice of it on the
district court’s website gave adequate notice of PTO 60
in the first place.
As noted, the short-form notice did not mention the
distribution model, so the petitioners would not have
had constructive notice of the distribution model’s
provisions merely by receiving the short-form notice.
The PTO 60 compliance requirement was not even
placed in the long-form notice, which a class member
could eventually have found when he or she went to the
settlement website “for more information” as suggested
by the short-form notice. The short-form notice
conveyed no urgency of consulting the website for more

21
information, since the claim-submission deadline was
not until December 15, 2016, approximately six months
away. The long-form notice did mention the
distribution model, but the only substantive discussion
thereof was to indicate that class members could
consult the distribution model to find out how much
their payment would be. That notice likewise suggested
no urgency in consulting the distribution model and
contained not even a hint that the distribution model
might contain additional eligibility requirements or a
provision that would retroactively exclude a class
member from participation in the settlements. This is
particularly significant given the fact that the longform notice set out the eligibility requirements for
commercial fishermen, and those stated requirements
did not include having a pending individual lawsuit in
the MDL. App. 97-99. In short, nothing in the means
of notice supports a conclusion that the petitioners
knew or should have known of the PTO 60 compliance
requirement before the June 28, 2016 deadline for
responding to the show-cause order.
Third, the reasoning of the court of appeals begs the
question of whether petitioners had notice of the showcause order even if they had adequate notice of the
PTO 60 compliance requirement in time to seek relief
under the order. Notice of the PTO 60 compliance
requirement could not reasonably be deemed an
impetus to action unless petitioners were also on notice
of some possibility to avoid the consequences of noncompliance by responding to the show-cause order.
The mere filing of the show-cause order was not
adequate notice to the petitioners, who were still

22
unrepresented and had never been actual parties to
any litigation in the MDL. As noted above, the district
court held that the mere filing of PTO 60 and posting
notice on the court’s website was not adequate notice of
the order to unrepresented persons who were not
actual parties and did not file an opt-out from the
DHEPDS, and the show-cause order specified means of
notice the same as or similar to those for PTO 60. Thus,
petitioners were no more on notice of the show-cause
order from such means of notice than they were on
notice of PTO 60 from the means of notice utilized with
respect to that order. Notice of the show-cause order
was not given by the notices of settlement or the
distribution model. The notices of settlement did not
mention the PTO 60 compliance requirement, so they
obviously did not mention the show-cause order as a
potential basis for relief from that requirement. As
shown above, petitioners did not have adequate notice
of the distribution model prior to the deadline for
responding to the show-cause order, and, in any event,
the distribution model, like the settlement notices, did
not mention the show-cause order and suggested no
possibility for avoidance of the consequences of not
complying with PTO 60. Rather, the distribution model
presented the exclusion from compensation because of
not having complied with PTO 60 as a fait accompli
and did not indicate any possibility for relief from the
consequences of non-compliance.
In Goss v. Lopez, 419 U.S. 565 (1975), this Court
said, “The fundamental requisite of due process of law
is the opportunity to be heard, . . . a right that has little
reality or worth unless one is informed that the matter
is pending and can choose for himself whether to . . .

23
contest.” Id. at 579 (internal quotation marks and
citation omitted). As shown above, petitioners were not
adequately informed that the show-cause procedure
was pending and thus had no meaningful opportunity
to contest the enforcement of the PTO 60 deadline
against them through a response to that order. In
short, the court of appeals penalized the petitioners for
not responding to an order of which they had not been
given constitutionally adequate notice, which is a
manifest violation of their due process rights.
The court’s holding that petitioners had other
opportunities besides the show-cause order to object to
the PTO 60 compliance requirement is likewise fraught
with error, principally because the court’s reasoning is
also based on the erroneous view that the mere filing
and posting of the distribution model gave the
petitioners adequate notice of the PTO 60 compliance
requirement as of June 13, 2016 and thus prior to the
deadline for raising objections to the distribution
model. Absent notice of that requirement, there was no
notice that there was anything to which petitioners
would need to object.
In addition, petitioners did not receive adequate
notice of the opportunity and deadline to object to the
distribution model. Although the mailed short-form
notice disclosed the right to object to the settlement
agreements, it did not disclose the existence of a
distribution model or any opportunity to object to its
provisions, even though that could also have been
mentioned. Therefore, notice regarding potential
objections to the distribution model was not adequate
under this Court’s precedents. Consequently,

24
penalizing petitioners for not objecting, as the court of
appeals did, is inconsistent with due process.
Beyond the inadequacy of notice, the reasoning of
the court of appeals regarding the opportunity to object
to the settlement agreements disregarded the fact that
the district court determined that the fairness-hearing
procedure was not the proper avenue for objecting to
the PTO 60 compliance requirement. As noted above,
some New Class members sought to present an
objection to the PTO 60 compliance requirement, and
the district court held that the objection was premature
and that such objections should be presented to the
court through appeals from individual claims
determinations. The petitioners presented their
objection in the manner directed by the district court.
Had petitioners presented their objections as an
objection to the settlement agreements for
consideration at the fairness hearing, they likewise
would have been instructed that their objections were
premature. In other words, such an effort would have
been an exercise in futility. Similarly, petitioners could
not have challenged the compliance requirement by
appealing from the order approving the settlements
and the distribution model, because the district court
had not yet decided that issue and it was not ripe for
appeal. A party cannot be deemed to have waived a
position by refraining from action where such action
would have been futile. See NLRB v. Robin American
Corp., 667 F.2d 1170, 1171 (5th Cir. 1982). Therefore,
the court of appeals clearly erred in holding that
petitioners forfeited their due process argument by not
taking action that would have been futile and was not
a proper means asserting their objection and for

25
instead presenting their due process argument in
precisely the manner that the district court stated was
the only proper manner.
In sum, by the district court’s own reasoning and
the apparent acknowledgment of the court of appeals,
the petitioners did not have adequate notice of PTO
60’s directive to file individual lawsuits in the MDL
prior to the deadline for compliance. Since the
requirement of compliance with PTO 60 as a condition
for compensation under the Settlement Agreements
was not promulgated by the claims administrator until
after the compliance deadline, petitioners obviously did
not have adequate notice of that condition in time to
comply. Since the short-form notice was not calculated
to reach petitioners, and the PTO 60 compliance
requirement was not set out in the short-form notice in
any event, petitioners were not given, prior to the
deadline to respond to the show-cause order, the
individual or otherwise best-practicable notice of that
requirement as mandated by the decisions of this
Court.
For the foregoing reasons, the purported notice
relied on by the court of appeals was not the best notice
that was practicable under the circumstances. Since
the reasoning and decision of the court of appeals was
thus contrary to this Court’s precedents, including
Eisen, Schroeder, and Mullane, the Court should grant
the writ to ensure proper application of its precedents
regarding the means of notice required to satisfy due
process.

26
2. The court of appeals denied due process or
abused its discretion in rejecting petitioners’
due process argument on grounds not
asserted by appellees or amicus but raised by
the court sua sponte at oral argument.
As noted above, the ground relied on by the court of
appeals to reject petitioners’ argument that application
of the PTO 60 compliance requirement violated their
due process rights—that petitioners had received notice
of PTO 60 compliance requirement in time to seek
relief from its consequences before their claims were
denied—was not raised by the appellees or amicus in
their briefing but was raised for the first time by the
court itself during oral argument. The court of appeals
thus effectively violated its own rule that an issue
raised for the first time at oral argument will not be
considered by the court. See, e.g., Arsement v.
Spinnaker Exploration Co., 400 F.3d 238, 247 (5th Cir.
2005). That rule is universal and well-settled, reflecting
“the premise of our adversarial system . . . that
appellate courts do not sit as self-directed boards of
legal inquiry and research, but essentially as arbiters
of legal questions presented and argued by the parties
before them.” Carducci v. Regan, 714 F.2d 171, 177
(D.C. Cir. 1983).
The rule is rooted in considerations of due process
and fairness. Judge Posner stated that “it would not be
quite cricket” for an appellate court to decide a case on
a ground raised for the first time at oral argument
because of the absence of notice to the other party that
the matter was at issue. Principal Mutual Life Ins. Co.
v. Charter Barclay Hospital, Inc., 81 F.3d 53, 56 (7th

27
Cir. 1996). The Florida Supreme Court noted that the
rule is founded on “[b]asic principles of due process.”
Bainter v. League of Women Voters, 150 So. 3d 1115,
1126 (Fla. 2014). Also invoking due process, by
reference to its elements (notice and meaningful
opportunity to be heard), the Hawaii Court of Appeals
said that the purpose of the rule was to ensure that the
opposing party had notice of the issue and that
introducing an issue at oral argument deprives the
opposing party of the opportunity to respond. State v.
Liulama, 845 P.2d 1194, 1204 (Haw. Ct. App. 1992).
Similarly, the North Dakota Supreme Court said that
only issues that were briefed by the parties could be
considered, so as to give the opposing party “a fair and
adequate opportunity for response.” Roise v. Kurtz, 587
N.W.2d 573, 575 (N.D. 1998). The court said that the
rule was based on reasons similar to the reason for the
rule that an appellate court will not consider issues
raised for the first time on appeal—because it would be
“fundamentally unfair” to do so; in other words, both
rules are based on principles of fundamental fairness.
Id. at 574-75. Cf. Allen v. Friel, 194 P.3d 903, 907
(Utah 2008) (analogous rule that appellant may not
raise new issue in reply brief “is rooted in
considerations of fairness”).
Furthermore, it is well settled that a party waives
an argument or issue not advanced in its brief to the
court but raised only at oral argument, and that is so
to the same extent, if not to an even greater degree,
when the new issue is raised at oral argument not by
the party but by the court. See Lear v. Cowan, 220 F.3d
825, 828-829 (7th Cir. 2000) (stating that issue raised
at oral argument by one of the judges was “thoroughly

28
waived”). Even if the court had discretion under certain
circumstances to consider an unasserted and waived
issue sua sponte, it would plainly be an abuse of that
discretion to do so without giving the opposing party
any meaningful opportunity to be heard on the matter
before ruling, such as by ordering supplemental
briefing prior to oral argument. In Thompson v. Dallas
City Attorney’s Office, 913 F.3d 464, 471 (5th Cir. 2019),
the court held that the district court did not deny due
process or abuse its discretion by considering an
argument raised in a reply brief in support of a motion
to dismiss because the new argument resulted from a
court decision that was issued after the movant filed
the principal brief and because the court gave the nonmovant “an adequate opportunity to respond prior to a
ruling.” The converse is plainly implied: a court does
deny due process or abuse its discretion in such a
circumstance if it fails to give the opposing party an
adequate opportunity to respond before ruling. Thus, in
Gillaspy v. Dallas Independent School Dist., 278 Fed.
Appx. 307, 315 (5th Cir. 2008), the court reversed a
summary judgment where the dispositive argument
was first advanced in the movant’s reply brief, and
there was no indication that the district court afforded
the non-movant an opportunity to address the new
argument before the court ruled. Therefore, the action
of the court of appeals was a violation of due process as
well as being sufficiently unwarranted and unfair to
constitute an abuse of discretion, and it so far departed
from the accepted and usual course of proceedings as to
warrant the exercise of this Court’s supervisory power.

29
3. Denial of compensation to petitioners based
on the PTO 60 compliance requirement
violated petitioners’ substantive due process
rights because it was arbitrary and
capricious.
Deprivation of property by action that is arbitrary
or lacks a rational basis also violates due process even
where there is notice and opportunity to be heard.
Daniels v. Williams, 474 U.S. 327, 331 (1986); Simi
Investment Co. v. Harris County, 236 F.3d 240, 249 (5th
Cir. 2000). The denial of compensation based on the
PTO 60 compliance requirement was arbitrary and
irrational in at least three respects.
First, the insistence on an ongoing lawsuit by New
Class members pursuant to PTO 60 at the time claims
were submitted was arbitrary because PTO 60 was not
issued until several months after the Settlement
Agreements were executed and logically should have
had no effect on claims that had already been settled at
the time it was issued. It is undisputed that at the time
the Settlement Agreements were entered into,
petitioners had viable causes of action for
compensatory damages against Halliburton and
Transocean and satisfied all the elements of maritime
law standing and punitive damages recovery
subsequently invoked by the claims administrator as
requirements for compensation. The settlement class
was defined in the Settlement Agreements, and
membership in the settlement class and consequent
entitlement to compensation were fixed when the
agreements were executed. Neither the appellees nor
amicus asserted, and the court of appeals did not hold,

30
that petitioners did not have a property right subject to
due process protections at that point. Since petitioners
met all the requirements for compensation at the time
the settlement agreements were entered into, and
would have been compensated but for the subsequent
issuance of PTO 60 and the claims administrator’s
seizing on that event as relevant to a case that had
been settled months before the order was issued, it was
arbitrary and capricious for the claims administrator to
insist on, and for the court to enforce, post-settlement
PTO 60 compliance as a condition for compensation.
Under the Settlement Agreements, the claims
administrator was to come up with a plan to pay the
class members; instead, he came up with a plan that
denied recovery to persons who clearly were class
members under the settlement-class definition. Neither
the appellees nor amicus pointed out any provision of
the Settlement Agreements that compelled the claims
administrator to impose the PTO 60 compliance
requirement. Thus, the claims administrator’s decision
to do so was arbitrary and capricious. Since the
petitioners had a property interest in a share of the
settlement funds as New Class members who met any
compensatory-damages-claim requirements for
compensation at the time the Settlement Agreements
were reached, there is no justification for the actions of
the claims administrator which took that property
interest away from petitioners.
Second, even if it was reasonable for the claims
administrator to examine a claimant’s inclusion in the
Settlement Agreements as of the time claims were filed
rather than at the time the Settlement Agreements were
executed, the claims administrator’s denial of

31
petitioners’ claims was still arbitrary because, at the
time petitioners submitted their claims, they had viable
pending claims for compensatory damages as class
members in the Bruhmuller class action. The claims
administrator, appearing before the court of appeals as
amicus curiae, admitted that, in denying compensation
to New Class members such as petitioners because of
non-compliance with PTO 60, the claims administrator
focused only on the class action allegations in the B1
master complaint, reasoning that the dismissal of the B1
master complaint left petitioners without a pending
cause of action for compensatory damages at the time
they filed their settlement claims, a deficiency that only
filing individual lawsuits pursuant to PTO 60 could have
avoided. The claims administrator’s brief stated:
With the dismissal of the B1 Master Complaint,
Appellants had no pending complaint for
compensatory damages on file in the MDL to
correspond with their claim in the settlement
program for punitive damages. And, because
they took no other action to preserve their rights
by compliance with PTO 60, Appellants had no
basis to claim or recover compensatory damages
in the MDL at the time their claims were
submitted to the New Punitive Damages
Settlement Program.
However, because the Bruhmuller class action was not
dismissed until December 16, 2016, after petitioners
had filed their claims, petitioners did have pending
causes of action at the time they filed their claims by
virtue of being members of the putative class in the
Bruhmuller case. Since the claims administrator

32
conceded that possession of a pending cause of action at
the time of claim submission was the ultimate criterion
for eligibility for New Class members, the denial of
compensation to petitioners, despite the fact that they
had pending causes of action at that time through the
still-pending Bruhmuller case, was arbitrary and
capricious.
Third, the claims administrator’s denial of
compensation to petitioners based on the asserted lack
of a viable compensatory damages claim was arbitrary
and capricious because he did not impose such a strict
requirement of trial-type proof of maritime law
requirements on other class members who similarly
failed to meet the requirements for recovery of punitive
damages under maritime law. The Settlement
Agreements provided for compensation to the DHEPDS
class even though members of that class could not have
satisfied the requirements to recover punitive damages
from Halliburton and Transocean at trial. Under
maritime law, to recover punitive damages from a
particular defendant, a plaintiff must have recovered
compensatory damages from that defendant. See App.
13 (“Under maritime law, a plaintiff’s recovery of
punitive damages is tied to his or her underlying
compensatory damages claim”) (emphasis added)
(citing Exxon Shipping Co. v Baker, 554 U.S. 471,
506–07 (2008)). DHEPDS participants had received
settlement funds from BP, not from Halliburton and
Transocean, who were not parties to the DHEPDS, and
voluntarily dismissed their suits. Since those persons
could not show that they had recovered compensatory
damages from Halliburton or Transocean, and they had
no pending suits against those parties, they could not

33
satisfy the requirement of having recovered or having
the potential to recover compensatory damages from
the party from whom they sought punitive damages.
In short, the claims administrator did not apply his
strict maritime law punitive damages standards to the
DHEPDS class. This is as it should be, since the
Settlement Agreements included those persons in the
definition of the settlement class and set out no
requirements for recovery other than class
membership. But by the same token, the petitioners
were also included in the class definition, and it was
the height of arbitrariness for the claims administrator
to select only persons lacking pending individual
lawsuits to which to apply a strict trial-type proof
requirement for compensation while ignoring the
maritime-law deficiencies of other class members. The
fact that the Settlement Agreements included
DHEPDS members in the settlement demolishes the
assumption that the Settlement Agreements required
a strict maritime law compensatory damages
component for a class member to be eligible for
compensation and thus renders the claims
administrator’s insistence on PTO 60 compliance for
the petitioners, which was based on that very
assumption, arbitrary and capricious. There is no
rational basis for the singling out and disparate
treatment of the petitioners with regard to maritime
law standing requirements, and the claims
administrator’s arbitrary action in denying
compensation to petitioners thus violated petitioners’
substantive due process rights. Accordingly, the Court
should grant the writ in order to give clear guidance on
the limits of a claims administrator’s ability to impose

34
additional or disparate requirements for claim
eligibility when developing a plan for carrying out a
class action settlement agreement.
CONCLUSION
Because the court of appeals did not follow this
Court’s decisions in Eisen v. Carlisle & Jacquelin and
related cases and also did not afford petitioners a
meaningful opportunity to be heard on the issue that
was the basis for the court’s decision, and because the
exclusion of the petitioners from recovery under the
settlements was otherwise so egregiously inconsistent
with due process and fundamental fairness, this Court
should grant the petition for a writ of certiorari.
Respectfully submitted,
John G. Wheeler
Counsel of Record
Michael D. Chase
Mitchell, McNutt & Sams, P.A.
P.O. Box 7120
Tupelo, MS 38802
(662) 842-3871
jwheeler@mitchellmcnutt.com
Michael D. Greer
Greer, Russell, Dent & Leathers, PLLC
P.O. Box 907
Tupelo, MS 38802
(662) 842-5345
Counsel for Petitioners

